<html>
<title> - PUTTING FOOD ON THE TABLE: A REVIEW OF THE IMPORTANCE OF AGRICULTURE RESEARCH</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                       PUTTING FOOD ON THE TABLE:
                       A REVIEW OF THE IMPORTANCE
                        OF AGRICULTURE RESEARCH

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            November 2, 2017

                               __________

                           Serial No. 115-35

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








       Available via the World Wide Web: http://science.house.gov
       
       
       
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-674PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
BARRY LOUDERMILK, Georgia            ED PERLMUTTER, Colorado
RALPH LEE ABRAHAM, Louisiana         PAUL TONKO, New York
DRAIN LaHOOD, Illinois               BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
DARIN LaHOOD, Illinois               SUZANNE BONAMICI, Oregon
RALPH LEE ABRAHAM, Louisiana         AMI BERA, California
DANIEL WEBSTER, Florida              DONALD S. BEYER, JR., Virginia
JIM BANKS, Indiana                   EDDIE BERNICE JOHNSON, Texas
ROGER W. MARSHALL, Kansas
LAMAR S. SMITH, Texas



























                            C O N T E N T S

                            November 2, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     5

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives
    Written Statement............................................     8

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    11

                               Witnesses:

Dr. Daniel Gerstein, Senior Policy Researcher, RAND Corporation
    Oral Statement...............................................    14
    Written Statement............................................    16

Dr. Stephen Higgs, Associate Vice President for Research and 
  Director, Biosecurity Research Institute, Kansas State 
  University
    Oral Statement...............................................    31
    Written Statement............................................    33

Dr. Stephen P. Moose, Denton and Elizabeth Alexander Professor, 
  Maize Breeding and Genetics, Department of Crop Sciences, 
  University of Illinois at Urbana-Champaign
    Oral Statement...............................................    42
    Written Statement............................................    44

Dr. Elizabeth Wagstrom, Chief Veterinarian, National Pork 
  Producers Council
    Oral Statement...............................................    53
    Written Statement............................................    55

Discussion.......................................................    61

             Appendix I: Answers to Post-Hearing Questions

Dr. Daniel Gerstein, senior policy researcher, RAND Corporation..    78

Dr. Stephen Higgs, Associate Vice President for Research And 
  Director, Biosecurity Research Institute, Kansas State 
  University.....................................................    84

Dr. Stephen P. Moose, Denton and Elizabeth Alexander Professor, 
  Maize Breeding And Genetics, Department of Crop Sciences, 
  University of Illinois at Urbana-Champaign.....................    91

Dr. Elizabeth Wagstrom, Chief Veterinarian, National Pork 
  Producers Council..............................................    97

            Appendix II: Additional Material for the Record

Report submitted by Representative Roger W. Marshall, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   104

 
                       PUTTING FOOD ON THE TABLE:
                       A REVIEW OF THE IMPORTANCE
                        OF AGRICULTURE RESEARCH

                              ----------                              


                       Thursday, November 2, 2017

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:35 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Good morning, and welcome to today's hearing titled 
''Putting Food on the Table: A Review of the Importance of 
Agriculture Research.'' I now recognize myself for five minutes 
for an opening statement.
    The purpose of today's hearing is to examine federal 
agriculture research including the scope, importance, value, 
and impact of such research. Agriculture research is a broad 
term that can include the study of diseases that threaten the 
nation's animal agriculture industry and public health. It can 
also refer to research to increase and improve crop and yield 
production through advancements in science and technology. In 
other words, we rely on the research to help protect the Nation 
from disasters, and we rely on it to help prepare us for the 
future, one in which agriculture research will benefit from 
developments in precision and automated technologies such 
robotics and artificial intelligence.
    In the Commonwealth of Virginia, agriculture research is an 
important topic for my constituents and for me because 
agriculture is such a critical industry. According to the 
Virginia Department of Agriculture and Consumer Services, 
agriculture is Virginia's largest industry by far with nothing 
else coming a close second. People are actually surprised that 
Virginia--for those of us in northern Virginia, we might be a 
little surprised that agriculture still holds as the top 
industry. The industry has an economic impact of $70 billion 
annually and provides more than 334,000 jobs in the 
Commonwealth.
    In the 10th Congressional District, agriculture's key role 
is felt far and wide, from the rows upon rows of apple and 
peach orchards in the western counties to the ever-growing wine 
industry, craft breweries and distilleries. We also have dairy 
and cattle farms too.
    Our distinguished panel today represents a variety of 
perspectives to explain the value and impacts of agriculture 
research. We will hear about the food security and economic and 
national security implications of a natural disaster or a 
terrorist attack on our crops and livestock. We will also hear 
about industry research efforts and practices, and an academic 
perspective on innovative efforts to more efficiently increase 
and improve crop yields.
    These are important considerations because agriculture 
research impacts all of us. As an example, one need only go 
back to the avian flu outbreak--which I'm not sure if I might 
be having a flu outbreak here--of 2014 and 2015, which resulted 
in almost $900 million in expenses to federal and state 
governments, the slaughter of more than 50 million birds, and 
an estimated cost to the U.S. economy in excess of $3 billion.
    I look forward to hearing about federal and other 
stakeholder agriculture research efforts from our witnesses 
today. I hope to understand how the research is coordinated and 
complemented to protect America's food sources so that we may 
all continue to safely and abundantly put food on our tables 
for the foreseeable future.
    [The prepared statement of Chairwoman Comstock follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    [The prepared statement of Ms. Johnson follows:]
  
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Comstock. I now recognize the Ranking Member, 
the gentleman from Illinois, Mr. Lipinski, for his opening 
statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock, for holding 
this hearing and the witnesses for being here today. Certainly 
in my State of Illinois, agriculture is huge, so there's no 
question that people know that.
    Often, the major research issues that we talk about here on 
the Research and Technology Subcommittee are not the subjects 
of everyday dinner conversation. But today, we are actually 
talking about dinner. I was hoping to see some product here for 
us this morning, but that's all right.
    Putting safe and affordable food on the table is something 
many of us take for granted. However, there is an entire 
ecosystem of innovation and public-private partnerships that 
make it possible for farmers to continue to meet the needs of a 
growing population.
    Agricultural science is multidisciplinary, spanning fields 
from engineering to economics. As Dr. Moose from the University 
of Illinois at Urbana-Champaign can attest, UIUC's Crop 
Sciences department includes research in statistics, ecology, 
environmental sciences, plant biology, horticulture, plant 
genetics, plant pathology, and weed science.
    Likewise, major discoveries and innovations that assist in 
crop production come from unexpected places. For example, new 
genetic editing technologies that began in a microbiology 
research lab promise major leaps forward for agriculture. In 
another example, NASA supported the development of satellite 
image refinement software for its research that also helps 
agricultural researchers study the effects of population and 
climate on crop field acreage.
    Agricultural researchers work closely with farmers to help 
translate all of this science into practice, while farmers 
continue to help define the research agenda for food security. 
Research and development is a system of feedback loops, not a 
linear path. There's rarely a clean line between basic and 
applied research in any field of inquiry, and today's topic is 
no exception.
    It is important to remember this as we examine the need for 
flexible, sustainable federal support for agricultural 
research. Both government and private sector investments 
support agricultural research. Multiple federal agencies 
support efforts to advance our Nation's leadership in 
agricultural research. These agencies work in close 
collaboration with the agricultural industry. Unfortunately, as 
federal budgets are tightened, academic researchers have less 
funding to move their science through the development process; 
therefore, the private sector supports an increasing share of 
agricultural research.
    While the private sector has an important role, we must 
continue to provide a balance of public and private funding in 
order to ensure both a pipeline of basic research and a 
research agenda driven by the needs of farmers and the public. 
Our lack of dedication to sustainable funding could cost us 
global competitiveness in certain areas of agricultural 
technology and put our food security at risk within the 
lifetime of many of us.
    A number of factors can affect the quality, availability, 
and safety of the plants and animals that help feed our 
families, including extreme weather, pests, and disease. In the 
face of emerging infectious diseases and new technological 
tools such as genetic editing, we must also be vigilant about 
intentional contamination and disruption of our food supply. I 
hope there is some discussion today about how researchers and 
industry are taking into consideration the agricultural impacts 
of a changing climate and growing population, and how those 
factors will help shape the research agenda. On the biosecurity 
front, which is one focus of this hearing, several of the 
today's witnesses will testify about the critical need to 
implement sustainable funding policies for the new National Bio 
and Agro-defense Facility under construction in Manhattan, 
Kansas.
    Now is the time to consider a federal strategy to increase 
the scale of agricultural research across the relevant 
agencies, encourage balanced federal-private sector 
partnerships, and ensure that our future agricultural workforce 
is equipped with the necessary science and technology skills to 
meet the food and biosecurity challenges of today and tomorrow.
    Finally, I would like to note that agricultural research 
also has applications beyond food security. For example, the 
Department of Energy recently awarded UIUC five years of 
funding to establish one of four new Bioenergy Research Centers 
that will provide a new generation of sustainable bioenergy and 
other bio-based products.
    I thank all of the witnesses for being here today to share 
their expertise, and I yield back.
    [The prepared statement of Mr. Lipinski follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    Chairwoman Comstock. Thank you, Mr. Lipinski, and given my 
challenges with my cold and my voice today, I'm going to defer 
to Mr. Marshall to be able to introduce our witnesses, which 
also include someone from his district, so thank you, Mr. 
Marshall, for taking over those duties.
    Mr. Marshall. Thank you, Chairwoman Comstock, and let me 
just start by saying thank you to the SST staff who's done a 
fabulous job of organizing this. I had no idea how much work it 
might be, and you all have been a thrill and an honor to work 
with, and to my staff as well. Lauren Orndorff, my science, 
space, and technology staff person, has done a great job 
organizing the witnesses and so honored to be able to introduce 
you all.
    First is Dr. Daniel Gerstein, who's the Senior Policy 
Director at the RAND Corporation. He's also the Adjunct 
Professor at American University in Washington, DC. Previously, 
Dr. Gerstein served in the Department of Homeland Security as 
Acting Under Secretary and Deputy Under Secretary in the 
Science and Technology Directorate. He graduated from the 
United States Military Academy and has a master's degree from 
Georgia Tech, the National Defense University and the U.S. Army 
Command and General Staff College. He also earned a Ph.D. in 
biodefense from George Mason University. Thanks, Dr. Gerstein, 
for coming.
    And my next witness is our own Dr. Stephen Higgs, who's the 
Associate Vice president for Research and Director of the 
Biosecurity Research Institute at my alma mater, Kansas State 
University, and we both got our purple ties on. Go Cats! This 
institution is a unique biocontainment research and education 
facility. Dr. Higgs is responsible for oversight, coordination, 
and expansion of the Institute's Biosecurity Research and 
Education programs. The Institute is located next to the 
National Bio and Agro-Defense facility, which we call NBAF back 
home, a biosafety level IV facility which is currently under 
construction and when completed will make Manhattan, Kansas, 
the Silicon Valley of bio and agro-defense. As it becomes 
operational, Dr. Higgs' proximity and experience will be 
invaluable to bringing that operation online. Previously, Dr. 
Higgs served as the President of the American Society of 
Tropical Medicine and Hygiene as well as Editor in Chief of 
Vector-borne and Zoonotic Diseases. Dr. Higgs earned a bachelor 
of science with honors in zoology from the Kings College in 
London and his Ph.D. in parasitology from Reading University in 
the United Kingdom. Welcome, Dr. Higgs, to Washington, D.C., 
and we look forward to your testimony. So much appreciate the 
tour you gave us back home as well.
    The next witness is Dr. Stephen P. Moose. He's Denton and 
Elizabeth Alexander Professor of Maize Breeding and Genetics in 
the Department of Crop Sciences at the University of Illinois 
at Urbana-Champaign. His research focuses on understanding how 
gene regulatory programs may be modified for crop improvement. 
Dr. Moose spent two years as a Project Leader at DeKalb 
Genetics Corporation in Monsanto Company using biotechnology to 
enhance corn grain nutritional quality. Dr. Moose received a 
bachelor's of science degree in biology from Case Western 
Reserve University and a Ph.D. in genetics and crop science 
from North Carolina State University.
    And finally, Dr. Elizabeth Wagstrom is our final witness, 
Chief Veterinarian of the National Pork Producers Council. 
During her career, Dr. Wagstrom has worked the intersection of 
animal and public health including as a practicing 
Veterinarian, an Epidemiologist and Public Health Veterinarian, 
an industry organization staff member and in academia. Dr. 
Wagstrom holds a doctor of veterinary medicine and master's in 
preventive medicine degrees from Iowa State University.
    And we start with our testimony by recognizing Dr. Gerstein 
for five minutes to present his testimony.

                 TESTIMONY DR. DANIEL GERSTEIN,

                   SENIOR POLICY RESEARCHER,

                        RAND CORPORATION

    Dr. Gerstein. Well, thank you very much. I'm very pleased 
to be here. Good morning, Chairwoman Comstock, Ranking Member 
Lipinski, and distinguished members of the Subcommittee. I 
thank you for the opportunity to testify today on federal 
research and development for agricultural biodefense.
    Since the establishment of the Department of Homeland 
Security (DHS) in 2003, the Department in complete coordination 
with the Department of Agriculture has served in a central role 
in agricultural biodefense, particularly in research and 
development. During my service as Acting Under Secretary and 
Deputy Under Secretary of the Science and Technology 
Directorate, my duties included oversight and support for U.S. 
agricultural biodefense R&D including the work at the Plum 
Island Animal Disease Center, or short, Plum Island, several 
academic Centers of Excellence related to agricultural 
biodefense and tens of millions of dollars annually in research 
and development funding.
    It is also during this period when DHS led by the S&T 
Directorate developed the justification and secured funding for 
the National Bio and Agro-Defense Facility (NBAF) at Manhattan, 
Kansas, as the replacement for the Plum Island facility.
    My testimony today will largely draw on these experiences. 
In my remarks, I'd like to place federal R&D efforts for 
agricultural biodefense in context. To do this, I will develop 
several themes.
    First, federal agriculture research must be considered 
within the global biological threats that span a broad spectrum 
from emerging infectious disease to the deliberate use of 
biological pathogens. Second, agriculture security is a 
national security and economic security issues. Third, U.S. 
laws, policies, and regulations are part of a larger 
international system of disease monitoring and reporting. And 
finally, robust, well-coordinated biodefense R&D is an 
essential component of maintaining a healthy and vibrant 
agricultural sector.
    In the interests of time in my oral remarks, I'll focus on 
the fourth theme regarding federal agricultural biodefense R&D, 
specifically developing several important areas of emphasis 
that should be considered.
    The first is, research and R&D solutions must be systems-
oriented. Investments have to be balanced and there are no 
silver bullets. A comprehensive system must include threat 
awareness, prevention and protection, surveillance and 
detection, and response and recovery. Second, good disease 
monitoring will be important to continuity of business. Early 
detection, rapid response and recovery, and ensuring accurate 
communications across all interested governmental and non-
governmental entities is essential. These areas require 
appropriate R&D support and funding. Third, cross-sector 
collaboration including end-user participation will be vital 
for developing preparedness and response capabilities. 
Livestock industry and producers, government officials 
including state and local animal health officials, the 
biopharmaceutical industry and veterinarians, first responders, 
and diagnostic laboratories must all collaborate on research 
and development to identify solutions that will be essential. 
Fourth, opportunities to field-test technologies worldwide 
should be identified. Countries with endemic zoonotic diseases 
of interest to the United States government and agricultural 
sector should be identified and approached to ascertain their 
willingness to work as partners for countermeasure and vaccine 
trials. Fifth, next-generation zoonotic disease training should 
continue to be developed. Education programs that target gaps 
in the agricultural biodefense workforce to include in research 
and development would be extremely useful. And finally, 
consistent funding for agricultural biodefense efforts is 
essential. Achieving the level of protection for this area will 
require specific investments in research and development in 
facilities such as Plum Island and NBAF. It also implies that 
state and local communities have the necessary funding to 
operate and maintain the labs that are part of the National 
Animal Health Laboratory Network. To do otherwise creates 
unnecessary risks for a $1 trillion portion of the U.S. 
economy.
    I appreciate the opportunity to discuss federal R&D For the 
agriculture biodefense sector, and I look forward to your 
questions. Thank you.
    [The prepared statement of Dr. Gerstein follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
   
    Chairwoman Comstock. Thank you.
    And we'll now recognize Dr. Higgs.

                TESTIMONY OF DR. STEPHEN HIGGS,

      ASSOCIATE VICE PRESIDENT FOR RESEARCH AND DIRECTOR,

                BIOSECURITY RESEARCH INSTITUTE,

                    KANSAS STATE UNIVERSITY

    Dr. Higgs. Good morning, Chairman Comstock, Ranking Member 
Lipinski, Chairman Smith, Ranking Member Johnson and members of 
the Subcommittee, my name is Stephen Higgs and I'm the Director 
of the Biosecurity Research Institute, the BRI, at Pat Roberts 
Hall, Kansas State University. It's a privilege to be here 
today.
    The BRI's mission is leading through research and education 
to protect agriculture and the public from biological threats. 
Over 20 different pathogens have been studied at the BRI but 
recent studies are focused on agents listed as priorities for 
the National Bio and Agro-Defense Facility (NBAF).
    The State of Kansas committed $35 million to the NBAF 
Transition Fund to support activities aligned with the NBAF 
mission. Additional funds have been provided by federal 
agencies including the U.S. Department of Agriculture, the 
Department of Homeland Security, and from stakeholder 
industries, notably the National Pork Board.
    For the first time since the 1980s, we have conducted 
livestock studies with the zoonotic Rift Valley fever virus in 
the United States. As I speak today, we are assessing 
susceptibility of white-tailed deer to Rift Valley fever virus. 
This is an important collaboration between Kansas State 
University and the USDA's Arthropod Borne Animal Diseases 
Research Unit.
    Using currently circulating Japanese encephalitis virus, 
another vector-borne zoonotic pathogen, we have infected North 
America mosquitoes and domestic swine. The BRI is the first 
non-federal U.S. facility ever to be approved to work on 
African swine fever and classical swine fever viruses.
    To perform NBAF-related agricultural research since 2011 
over 250 people have been trained and passed the background 
checks required for registration to work with so-called select 
agents that are NBAF priorities. Fellowships to train 
transboundary animal disease professionals have been supported 
by funds from the Department of Homeland Security although we 
have unfortunately heard that they lack the funds to support 
this important NBAF-related training beyond 2018. I did, 
however, meet the deputy administration of USDA's Office of 
National Programs to discuss collaborative efforts between the 
University and the USDA for NBAF workforce development.
    As the first operational land grant university, Kansas 
State has 150 years of committed agricultural research, some of 
which is described in my written testimony. As I comment more 
on NBAF, I am not representing the views of DHS or USDA. NBAF 
is not just a replacement for the aging Plum Island. NBAF will 
provide a critical new capacity to enhance the Nation's ability 
to understand and respond to the world's most dangerous 
pathogens. NBAF will enable research with livestock infected 
with agents requiring biosafety level IV containment. It's 
remarkable to me that other countries have federally funded 
laboratories to do such work but the United States does not. As 
in other countries, we must have a long-term federal funding 
commitment to support not just the operation of NBAF but also 
the vitally important research and training that will be 
performed there.
    In 2015, the bipartisan Blue Ribbon Study Panel on 
Biodefense published its national blueprint for biodefense. 
Sadly, the most important conclusions were that the U.S. lacked 
leadership, a strategic plan and dedicated budget for 
biodefense. Last January, two panel members held a hearing at 
Kansas State titled Agrodefense: Challenges and Solutions. 
Congressman Roger Marshall provided a Congressional 
perspective. Interestingly, in the subsequent report, it was 
recommended that the DHS and the USDA should develop a business 
plan for NBAF. When in Manhattan members met leaders of the 
Kansas Intelligence Fusion Center. With expertise on diseases 
of plants, animals and people, members of the Center's 
biothreat team helped to evaluate many reports related to 
biological threats to U.S. citizens and agriculture.
    Eighteen years ago, President Wefald of Kansas State 
testified before the U.S. Senate's Emerging Threat Subcommittee 
to discuss biological weapons, the threats to our agricultural 
economy and food supply. With little tangible action since 
then, we face a prospect of managing under crisis conditions a 
biological event that is spreading out of control from state to 
state. These threats go far beyond disrupting our ability of 
putting food on the table. They have serious consequences on 
employment, trade, and global economy.
    And on that note, I thank you for the opportunity to talk.
    [The prepared statement of Dr. Higgs follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Chairwoman Comstock. We now recognize Dr. Moose.

               TESTIMONY OF DR. STEPHEN P. MOOSE,

           DENTON AND ELIZABETH ALEXANDER PROFESSOR,

                  MAIZE BREEDING AND GENETICS,

                  DEPARTMENT OF CROP SCIENCES,

           UNIVERSITY OF ILLINOIS AT URBANA-CHAMPAIGN

    Dr. Moose. Good morning, Chairwoman Comstock, Ranking 
Member Lipinski, and other distinguished members of the 
Subcommittee. Thank you for the opportunity to discuss with you 
putting food on the table.
    I come to you today with a very personal commitment to this 
topic. My wife and I both grew up on farms. We were brought 
together by a state-sponsored fellowship for graduate school at 
North Carolina State University. We farmers became scientists. 
We have since devoted our lives through both education and 
research to bringing science back to the farm.
    I will discuss with you three topics today: the government 
support of agriculture research, the partnerships among farmers 
and scientists and the private sector, and then the value of 
agriculture research. Although I'm using examples from my own 
personal experience, I'm here to represent the broad enterprise 
that is agriculture research.
    So looking at the support, Abraham Lincoln sprouted 
agriculture research in this country through the creation of 
the People's Department, the United States Department of 
Agriculture. He also created through the Morrow Act the land 
grant universities. From their beginnings, land grant 
universities have shared with the federal government and 
they're the core of this shared responsibility of agriculture 
research. The largest piece of the federal research pie 
supports university research through competitive grants, and 
these come primarily through the USDA but also the National 
Science Foundation and, as Mr. Lipinski mentioned, the 
Department of Energy. Federal funding supports a healthy 
diversity of small exploratory research to large, multi-
institutional centers. Furthermore, agriculture research is 
filled with many interagency partnerships. States and local 
communities also partner extensively on technology transfer and 
business development through Agriculture Innovation Districts 
such as the Research Triangle Park in North Carolina where 
universities are often the nucleus for job growth.
    Lincoln's vision also considered fundamentally linked 
research and education. This year the University of Illinois 
celebrates 150 years of teaching farmers to become scientists 
and scientists to study the farm. We train the next generation 
of science leaders and the workforce.
    So let's talk about partnerships. There's a long history of 
cooperation with agriculture research. I show in the picture, 
it's actually the longest running plant genetics experiment in 
the world, which I actually continue, me and my team. This 
experiment began in 1896 when a professor went to a local 
farmer's field, sampled ears of corn, and then decided to 
select for higher or lower grain protein, and the goal for this 
was to improve nutrition for animal feed. He did not know that 
this experiment would continue annually for the next 120 years, 
and as shown in the picture are my graduate students who 
completed that 120th cycle of this experiment.
    In addition to the valuable knowledge we've gained about 
plant breeding, the earliest commercial corn hybrids, the 
parents, came from this germ plasm. Also, high-oil corn, which 
is a value-added trait that's been marketed since the 1990s, 
came from this experiment. So you just really don't know when 
this research will pay off. During the last 15 years, the 
National Science Foundation, the Plant Genome Research program, 
the USDA, as well as DuPont Pioneer and Monsanto Company, have 
supported this experiment.
    So let's talk about the value then of these investments. 
Agriculture research generates tremendous long-term benefits to 
the U.S. economy. I show in the next slide there where just the 
example of corn, average corn yields in the United States. This 
tremendous increase has been powered by the compounding 
benefits of advances in science that I list there with genome 
editing and Big Data now being the emerging fields, if you 
will. And so these will drive further enhancements and yield 
nutritional quality and environmental resiliency.
    Each bushel of corn yields $300 million at the farm gate 
and $1 billion to the U.S. consumer. Interestingly, for each of 
the technologies I list there, there was a lag period of at 
least a decade or more from the time of the initial discovery 
to the commercial application, and so one significant value of 
agriculture research is to reduce the risks for commercial 
adoption.
    Finally, the last thing I will say is that there's an 
essential value to agriculture research that helps connect 
science with society, it connects farmers with science, and 
farmers to society, a three-way loop. So only two percent of 
our population is now engaged in agriculture. The other 98 
percent are interested in food and through research, they're 
interested in research, so that value is immense.
    So working together, future agriculture research will 
continue to put farm and food on the table.
    Thank you.
    [The prepared statement of Dr. Moose follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    Chairwoman Comstock. I now recognize Dr. Wagstrom.

              TESTIMONY OF DR. ELIZABETH WAGSTROM,

                      CHIEF VETERINARIAN,

                NATIONAL PORK PRODUCERS COUNCIL

    Dr. Wagstrom. Thank you. Good morning, Chairwoman Comstock, 
Ranking Member Lipinski, and members of the Subcommittee. I'm 
Liz Wagstrom, the Chief Veterinarian of the National Pork 
Producers Council.
    The United States is the lowest cost and most 
technologically innovative producer of food in the world. It is 
the globe's top exporter of agricultural products and has the 
safest food on the planet, and it's that way because of our 
historical commitment to research. To maintain our position in 
the world and keep our country food-secure, we must devote more 
resources to agricultural research. We need a commitment to 
research to help America's farmers and ranchers continue to 
feed this country and much of the rest of the world. The UN's 
food and agricultural organizations says food production needs 
to increase by 70 percent by 2050. That need will be met 
through research into more effective food production. If we 
don't produce more food for our growing population, are we 
going to start importing more and more of it to the United 
States? Are we really going to be okay with relying on some 
other country to provide for us? Yes, food is a national 
security issue.
    The benefits of research should be obvious. In case it's 
not, according to the USDA's Economic Research Service, for 
every dollar of federal agricultural research funds invested, 
$20 is returned to the economy. Through better genetics, better 
feed rations and new animal care and housing methods, all based 
on research, hog farmers now produce more pigs on 78 percent 
less land using 41 percent less water than 50 years ago. That's 
why the U.S. pork industry has been a strong supporter, funder 
and user of agricultural research.
    The National Pork Board as the federally established 
checkoff program has spent a significant amount of its annual 
budget on research over the past 10 years, funding 851 projects 
at more than $61 million. One disease the pork industry has 
invested research dollars on is porcine reproductive and 
respiratory syndrome. PRRS is a viral disease that can cause 
reproductive failure in breeding sows and respiratory issues in 
pigs of any age. It is the most economically significant 
disease now affecting U.S. pork production. Through an almost 
30-year-long public-private collaboration starting with the 
identification of the causative agent of what we called mystery 
pig disease, we have made significant progress in dealing with 
this disease. One of those efforts, a PRRS host genetics 
consortium, brought together the pork industry, USDA's 
Agricultural Research Service, National Institute of Food and 
Agriculture, Genome Canada, private companies and universities 
to conduct multiyear studies to understand the genetics of PRRS 
virus infection. That has led us to the brink of developing a 
PRRS-resistant pig. This would be a huge step forward.
    The recent outbreak of porcine epidemic diarrhea virus 
points to the vulnerability of U.S. agriculture to emerging and 
foreign animal diseases, and one of the diseases we and others 
in livestock agriculture are particularly worried about is foot 
and mouth disease. An outbreak today of that disease would cost 
pork, corn, beef and soybean sectors alone $200 billion over 10 
years. We are urging Congress to establish and fund through the 
next farm bill a robust manufacturing managed vaccine bank to 
respond to an FMD outbreak. Research can help address the 
alarming gap in the government's preparedness for an FMD 
outbreak so in addition we are requesting $30 million a year 
for the National Animal Health Laboratory Network, which 
conducts diagnostics, as well as $70 million a year for block 
grants to the states.
    As you can tell, animal agriculture could use a lot more 
research dollars. Unfortunately, the commitment to agriculture 
research seems to have waned. According to USDA, public-sector 
food and agriculture research and development was 50 percent of 
the agency's budget from 1970 through 2008, but by 2013 had 
fallen to less than 30 percent.
    One factor contributing to the decline is the increased 
operating costs of federal research facilities. It's estimated 
that the annual maintenance and operating costs of such a 
facility are ten percent of the cost of building it. So over 
and above research dollars, there must be a commitment to 
operating funds for federal agriculture research facilities 
such as NBAF, which is scheduled to open in 2022. These 
infrastructure needs are a critical issue. As an example, 
because of maintenance issues, the Plum Island Animal Disease 
Center cannot at this time conduct food animal research onsite, 
and that's a full five years ahead of the expected opening of 
NBAF. There must be a renewed commitment to funding research 
which will allow America's farmers to effectively feed a 
growing world population, improve public health, and strengthen 
national security.
    In conclusion, the U.S. pork industry strongly supports and 
urges a significant increase in funding for federal intramural 
and extramural agricultural research to help America's farmers 
and ranchers continue feeding a growing world with safe, 
wholesome and nutritious food.
    [The prepared statement of Dr. Wagstrom follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairwoman Comstock. Thank you, and I now recognize myself 
for five minutes of questions.
    Dr. Wagstrom and Dr. Gerstein, you both note in your 
testimonies that increased travel and trade between nations 
combined with the convenience of global travel would 
potentially make it easier today for a foreign animal disease 
to spread quickly once introduced in the United States, and 
we've certainly seen that in the past. But why have we really 
had limited instances of that happening, and what are the best 
practices for us going forward?
    Dr. Wagstrom. One of the best practices going forward is 
continuing to look at our customs and border protection. We on 
the farm have responsibilities for biosecurity and to make sure 
that we are careful about what we bring into our farms. We are 
definitely in the pork industry concerned. We have not seen 
foot and mouth disease since 1929, but since 2013 we've had an 
incursion of porcine epidemic diarrhea virus. In 2009, we had 
H1N1 influenza that spread through the pandemic globally, and 
we are now dealing with an outbreak of what's called Seneca 
Valley virus, and so all three of those have told us--have 
proven we have vulnerabilities that we need to address. I'll 
yield.
    Dr. Gerstein. Thank you. Yeah, I agree with what Dr. 
Wagstrom talked about. I think it begins with customs and 
border protection being able to seal our borders. When 
agricultural products come through, they need to be properly 
inspected. There are protocols for that. We do on a routine 
basis find animals that should not come into the country, and 
of course they're turned away.
    But there's more that needs to be done. Here's where 
research and development can really be key. We need to think 
about concepts such as pen-side diagnostics and having those 
available so that we can do a rapid testing of the livestock 
and ensure that if there is an issue, it's rapidly addressed. 
To the extent possible, we want to identify as early as we can 
so that we can take actions and then return the food supply to 
its proper state. So I think that's one example. We also----
    Chairwoman Comstock. Now are those being used now?
    Dr. Gerstein. Well, there are some pen-side diagnostics 
that have been looked at in terms of research and development. 
I'll leave it to, you know, the experts in terms of how much 
they are using them within the different industries but we had 
been--when I was with Homeland Security, we had been looking at 
pen-side diagnostics as something very key.
    I think the recent responses to diseases such as Ebola and 
Zika point out that we have a lot of work to do, research and 
development in areas such as threat awareness. I remember going 
to a session with the former head of the Centers for Disease 
Control and Prevention about a month after the Zika virus had 
come into the country, and he made the comment that, you know, 
before this we had about an eighth of an inch thick file on 
Zika and today it's five inches thick. Well, I mean, we can't 
wait until something occurs and then react, and this means that 
we have to work globally with partners, we have to understand 
how disease is progressing, we have to make sure that all of 
our systems, biosurveillance, are tuned so that when something 
occurs, it can be an immediate response and not wait and be 
reactive. Those are just a couple thoughts.
    Chairwoman Comstock. Thank you.
    And Dr. Higgs or Dr. Moose, if you have any comments on 
that.
    Dr. Higgs. Well, we talked about diagnostics but the key 
thing is actually getting those applied where we need them. We 
have relatively poor surveillance. We don't look at most of the 
material coming in. We have a group at the BRI, the National 
Agricultural Biosecurity Center, who's doing some pathway 
analysis to look at routes by which pathogens could make it 
into the country, but if we don't have the surveillance out 
there, then we're already sort of behind the curve.
    Chairwoman Comstock. Thank you.
    Dr. Moose. I would only add that in addition to the 
animals, there's also plant diseases that can have a serious 
impact. We've had those happen in the past, not in recent 
history, but we know worldwide there's, for example, a fungus 
that's had a big problem with wheat, a big impact on wheat 
production. Luckily it's not been in the United States. The 
same goes for soybean. South America deals with a disease that 
luckily we don't have here, but we don't have it here because 
in part there's a surveillance system in place.
    Chairwoman Comstock. Thank you.
    And I now yield to Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. I want to start by talking about 
innovation hubs and incubators. It's something that I've spent 
a lot of time on here in this Committee, not necessarily on the 
side with agriculture but something that I know we all know can 
be very helpful. So I wanted to ask Dr. Moose, I know in your 
written testimony you describe the importance of Agriculture 
Innovation Districts such as University of Illinois Urbana-
Champaign's Illinois Research Park. Can you expand on the 
approach of the research park to supporting early-stage 
businesses, what are the key strategies that you use, how the 
federal government may be able to help more on that?
    Dr. Moose. Sure. So at the University of Illinois, we do 
have a research park, and what its function is, is to take 
these great ideas from the campus and provide assistance in 
both the physical infrastructure and support for business 
development. The also serve to connect those early startup 
businesses with the business venture community. It doesn't have 
to be necessarily just venture capital but we'll call it the 
investment community, and so those connections then help 
transition--it's called the valley of death often where 
there'll be an idea, has a great potential, but then fails to 
reach commercial application. And so the research park at 
Illinois has a number of ways it does that. I actually have 
personal experience with that. My wife's company was gestated, 
if you will, or nurtured in enterprise works at the research 
park. They now are based in Texas but they're one of the 
leading sorghum seed genetics companies. And there's another 
one also called iCyt that has a very new technology on how to 
type both animal and plant genetics, and that technology has 
really changed how we do that kind of work, and that was 
started in a lab actually down the hall from me. The research 
park helped transition them into a business and now they're a 
subdivision within Sony Corporation. They were brought into 
that field.
    And there are many examples of this all throughout the 
country of usually universities being the nucleus but not 
necessarily where again ideas are nurtured and cross through 
that, I call it de-risking where there's a huge risk. There's 
often talk about balance between research and development and 
industry and university work, and the way I like to describe 
that is, there's an R&D, research and development, and 
companies are really good at the D. They have a big D and a 
little R. Universities are a big R and little D, and then 
things like the research park would be the ``and'', the 
ampersand, that in between that helps make those links succeed.
    Mr. Lipinski. Is there anything that the federal government 
can do better to help this process, help anything like what 
University of Illinois is doing and others?
    Dr. Moose. I believe so. I think there are a number of 
federal agencies that recognize this technology transfer 
aspect. For example, the NSF now has what's called I-Corps 
where the idea is that young entrepreneurs who have a good 
research idea, they actually can be supported for a period of 
time to investigate the business prospects, and they can do 
this in a way where they're not jeopardizing their career in a 
sense by taking time off, if you will, from the academic track. 
So that's one example. The USDA also has started those things. 
And then just the base of research, the federal support, 
enables those good ideas to happen, and also the facilities 
that may be there. I know, for example, the research park at 
Illinois makes use of the resources that are on our campus 
because of federal and state support. So possibly just 
identifying where those can happen more fruitfully would be an 
important role of the federal government.
    Mr. Lipinski. Thank you, and thank you for the commercial 
there for I-Corps. As many of my colleagues on the Committee 
know, I'm the one who for many years has been talking up I-
Corps, and I know University of Illinois has done a great job 
in terms of the number of teams that go through I-Corps, so 
it's good to hear how successful that has been.
    Thank you, and I yield back.
    Mr. Marshall. [Presiding] I now recognize Dr. Abraham for 
five minutes.
    Mr. Abraham. Thank you, Dr. Marshall, and thanks for 
spearheading this hearing. In my opinion, this will be one of 
the more important hearings that we in Science, Space, and 
Technology hear in the entire year.
    Dr. Gerstein, I read your book, ``Bioterror in the 21st 
Century,'' and I really think it should be required reading for 
every Member of Congress if we're responsible for legislating 
and appropriating money for bioterror. It's eye-opening, and as 
you alluded to, the mass casualty count could be horrific. It 
would pale to anything we've ever seen before.
    The field of genetic engineering, genetic modification, 
whatever you want to call it sometimes gets beat up pretty bad 
in the press but if my medical history serves me right, I think 
this goes back to maybe 30 or 40 years ago when the 
pseudorabies vaccine with recombinant DNA was actually on the 
scene and unfortunately a lot of people don't understand that 
hep B vaccines, interferon that we use for cancer, all these 
wonderful things in technology and medicine that not only save 
lives but feed our world are due to research and technology.
    Dr. Wagstrom, you said that, you know, we'll need 70 
percent of food production increase by 2050, which means, you 
know, we're looking at 200 bushel acre soybeans, 300 bushel 
acre corn which is not obtainable now, but if we are expected 
as America to feed the world as we heretofore have always done, 
then we've got to get there.
    We have in this Committee and it's certainly gone national 
and worldwide now, we've heard about the CRISPR-Cas9, the 
genetic engineering technology. I know, Dr. Gerstein, you've 
written extensively on the horrors of CRISPR in a 
bioterrorist's hands, and we know the wonderful things it can 
do with single and now multiple gene mutation as far as curing 
children with leukemia, curing possible children with sickle 
cell, those types of deal.
    So I guess my question, and all of you are eminently 
qualified to weigh in on this, where do we go from here? We 
need to move forward. We need to move forward very quickly, and 
you know, what's the next step in your opinion? Dr. Gerstein, 
I'll start with you and just go down the line.
    Dr. Gerstein. Well, thank you for that, and thanks for the 
plug for the book.
    Mr. Abraham. It's a great book.
    Dr. Gerstein. Thank you. So you know, I'm going to come at 
this from a Department of Homeland Security perspective and say 
that what I worry about is either accidental use of something 
or deliberate use of something that results in a catastrophe, 
some sort of biological pathogen, and so I'm going to kind of 
stick to those. When I talk about areas like CRISPR as a 
technology, I don't talk about it as being a danger but it 
could be a danger if the technology is misused, and so the key 
for us is to understand that in the realm of biotechnology, 
much of the area has become very deskilled. You know, if you 
talk to people from the old weapons program that we had back in 
the '50s and '60s, they talked about people at the bench with 
good hands, and today, many of those technologies don't require 
good hands and you can do fine in preparing pathogens that can 
be very useful as biological weapons, or you could make 
manipulations to genomes that could actually be dangerous. And 
so I worry about monitoring the different areas where the 
technology is being used and understanding what a potential--an 
individual with, say, nefarious intent could be doing with 
that. In fact, that's one of the reasons why the Director of 
National Intelligence in 2016 had identified the gene editing 
as a worldwide global threat, and that caused a great deal of 
fervor, but I think what he was signaling was that 
biotechnology has gotten to the point where it really does 
reside in many cases not just in labs but in our communities as 
well.
    Dr. Higgs. I'll just make a comment on CRISPR-Cas9. I was 
on the National Academy committee reviewing that technology. I 
suppose it was the speed of development which shocked me. By 
the time we held our first meeting, I was getting emails, for 
$120 you could buy these kits suitable for high school students 
to do this. It was just astounding.
    Dr. Moose. Thank you also for this question. I view the 
genome editing field, of which CRISPR-Cas is sort of the main 
technology, it will revolutionize how we improve crops because 
crop improvement through biotechnology, I will call it 
tinkering, it's like playing with Lincoln Logs whereas the 
CRISPR-Cas, we will be able to basically take a genome and 
it'll be like a word processor--edit, change a letter here or 
there--and do that in a designed way. So the speed and 
precision at which we'll be able to do that is wonderful.
    I use the example of our 120-year experiment. We actually 
in my lab right now are trying using CRISPR-Cas to see if we 
can accelerate that to a five-year time frame. We're trying to 
make some of those same changes that breeding took 120 years to 
accumulate, can we do this in five. So the speed and precision 
will be phenomenal.
    That said, and it's been alluded to in the earlier answers, 
that also democratizes, if you will, the ability to practice 
this technology, and so that may be a real role for the federal 
government in how do we connect the technology with society, 
with the end users, and make that so that the recognition of 
its potential and the responsibility to use it is--that society 
understands that and is engaged in that process. I yield.
    Dr. Wagstrom. Thank you for the question. Obviously 
technology affects all sorts--all areas of agricultural 
production, especially in pig production. We look at it as a 
way to help us maximize animal health and animal welfare and 
help us produce that 70 percent more food. For us, obviously 
PRRS is an immense issue. It's a pathogen that causes a lot of 
secondary bacterial infections, probably one of the reasons we 
use some of the antibiotics we do. So we look at developing a 
PRRS-resistant pig, we think we'll not only be able to have 
healthier pigs but use less antibiotics. We also see technology 
as a potential to help us develop alternatives to the current 
antibiotics we use that may have less antibiotic-resistant 
consequences throughout the food chain.
    I sit as--I'm a liaison to the Presidential Advisory 
Committee, our council on combating antimicrobial-resistant 
bacteria, and we've actually--one of our recommendations in our 
last report is that we put together an Innovation Institute 
within the USDA that would help people who are researching 
alternatives to antimicrobials and other areas try to go 
through an uncertain regulatory process because these are 
uncertain where they belong in the regulatory chain and get 
those commercialized. So we look at not only a technology as 
improving pig breeding but also improving our tools to raise 
our animals.
    Mr. Abraham. Thank you, Dr. Marshall, for the extra time.
    Mr. Marshall. I now recognize Mr. Beyer for questions.
    Mr. Beyer. Thank you, Dr. Marshall, very much.
    My favorite line in history is that America was born on a 
farm in Virginia. It's really important that you all are here, 
and I really want to thank Chairman Comstock and Ranking Member 
Lipinski for putting this on.
    It's especially important because this Administration has 
repeatedly undermined science, particularly in agencies where 
science should be the key component. Just this week, Secretary 
Pruitt issued a directive to prevent scientists at the EPA from 
serving on the agency's Scientific Advisory Board if they have 
had even one EPA grant. And last month, Kathleen Hartnett-White 
was nominated to chair the Administration's Council on 
Environmental Quality despite the fact that she denies 
overwhelming scientific consensus on climate change and has 
said on the record carbon emissions are harmless and should not 
be regulated.
    And unfortunately, the U.S. Department of Agriculture is no 
exception. Sam Clovis, who was the Administration's pick to be 
the Chief Scientist, is not a scientist of any kind, much less 
an agricultural scientist, and we just learned this morning 
that he's withdrawn his application nomination for that.
    So the American people, Republican, Democratic and 
everything else, deserve a higher standard of experience and 
accomplishment from the top scientific leaders in our 
government. We're very pleased to have top scientific leaders 
with us here this morning.
    Dr. Moose, I'm fascinated with your background as a 
geneticist, and I'm much impressed by the work of the Land 
Institute in Salina, Kansas. We've been arguing that all of 
nature's ecosystems are perennial polycultures. Agriculture is 
largely annual monoculture, which basically is short-term, 
high-yield perspective rather than the long term. And 85 
percent of human populations' calories come from annual crops. 
There are perennials--olive trees, grapes, alfalfa, things like 
that, fruit trees--but their work is trying to figure out how 
do we move agriculture from annuals to perennials, first by the 
domestication of wild perennials or by the perennialization of 
existing annuals. So as a maize breeding and plant geneticist, 
what's your perspective on the work of the Land Institute and 
this notion of moving to perennial polyculture to avoid soil 
erosion, all the bad things that happen when you have to turn 
the soil every year?
    Dr. Moose. Yes, so thank you, Mr. Beyer. I am aware of the 
Land Institute. I think they have a very--it's a good approach 
that they're taking. There are clear environmental benefits, 
sustainability improvements that can be achieved with 
perennials. I believe part of the reason that much of our 
agricultural systems are an annual base, and first they are 
more productive on an annual basis, so you will get higher 
yields from an annual crop than a perennial crop because the 
perennial crop is actually investing some of that 
photosynthesis below the soil, which is obviously a good thing 
too, but that's one reason.
    The second one, though, is also this risk on the farm. If I 
have a perennial--and so I know a little bit about this because 
I study miscanthus also, which is a perennial grass that's been 
touted as a possible bioenergy crop, a dedicated bioenergy 
crop, and it's an amazing plant. There's a lot to learn from 
it. But one risk that comes with that is, it takes three years 
to establish and get to productivity. The stand may last 10, 15 
years but we only have one variety of that kind of plant for 
bioenergy. So if a disease was to come in, it might wipe out 
that crop and we would not have many options in terms of 
replacing it. So annuals offer a flexibility which reduces 
risk, and I guess what I would advocate in terms of the best 
systems are those that combine the benefits of annuals with the 
benefits of perennials, and so research in that area is going 
on. I believe it would be good to increase that effort.
    Mr. Beyer. Great. Thank you very much.
    Dr. Higgs, you said and wrote, and I'm going to quote, ``A 
concern was expressed''--this is in the Blue Ribbon Study 
Panel--``that the President's fiscal year 2018 budget request 
would eliminate all agriculture and animal-specific research by 
the DHS Science and Technology Directorate.'' I'd just love if 
you could please emphasize for all of us that this is a matter 
of national security and shouldn't be partisan at all.
    Dr. Higgs. No, you're absolutely correct, and the beauty of 
this panel is that it is bipartisan because the needs of this 
country go beyond politics in terms of food and agriculture. We 
all eat. And having the funding to do that research is 
absolutely critical. I alluded to our training that we've got 
and that Homeland Security seems not to have funding to sustain 
that training after 2018 at the moment. We hear about the 
levels of funding that is required to do the research and the 
training but that is not being translated into those funds 
actually being appropriated to support that.
    Mr. Beyer. Great. Thank you very much.
    Mr. Chair, I yield back.
    Mr. Marshall. I now recognize Mr. Lucas for questions.
    Mr. Lucas. Thank you, Mr. Chairman, and before I turn to 
Dr. Wagstrom for a specific question, I think it's worth noting 
the wondrous system that we have in the United States. I mean, 
the Morrow Act of 1862, a couple of you are from those 
institutions. For the first time in the history of the world 
with President Lincoln's signature on that Act, we made it 
possible for someone who did not come from wealth or social 
status to go to college, to have an opportunity in agriculture 
or mechanics in the sciences to have a college education, a 
most amazing accomplishment, and the technology, the training 
that's come from that.
    A lot of times some of my idealistic friends here in 
Congress say why we should spend public dollars to do anything, 
let the private industry do it all, but you produce the 
scientists who fuel both higher education, research, and the 
private industry, correct? You're the pipeline that produces 
the brilliant people who go on to drive that, so that is 
important, that coalition, that combination, those public 
resources in producing our next generation of scientists.
    We talk about the animal and health and plant issues. USDA 
and sometimes again we on the Ag Committee, and I share both 
that Committee assignment and this one, are criticized for the 
people that we have around the world but we literally have 
agents in foreign countries examining plants and animals before 
they come to the United States. We have people in foreign 
countries because agriculture is a free-flowing trade, we have 
people looking at disease issues there before they can be 
certified to bring their product into the country. So the 
investments we make, which are sometimes not so exciting in the 
eyes of the appropriators and some of other colleagues, are 
very necessary. The biggest USDA research facility outside the 
United States is, what, Mont Pierre, France? Been there for a 
century looking at things that come into the country 
beforehand.
    Now, a little more of a particular focus, Dr. Wagstrom. 
We've talked earlier about foot and mouth, or as my grandfather 
called it, hoof and mouth, the most amazing, viciously 
aggressive virus that we've kept out of the country for 88 
years, which does still exist in other continents and places 
around the world. Visit with me for a moment if you would a 
little more in detail about the Homeland Security Presidential 
Directive Number 9 from 2004 about establishing a national 
policy to defend our agriculture and our food systems, and in 
particular the concept of the national veterinarian stockpile 
of vaccines.
    Dr. Wagstrom. Thank you, Mr. Lucas. We have a very small 
North American bank, very small. It wouldn't vaccinate all the 
pigs and cattle around Guymon, Oklahoma. It's that small. What 
we need is a vaccine bank that will protect us against all 23 
strains of foot and mouth disease that are circulating around 
the world.
    Mr. Lucas. And foot and mouth is an example of one of the 
things we need to be prepared to----
    Dr. Wagstrom. Correct.
    Mr. Lucas. --defend ourselves against, one of.
    Dr. Wagstrom. Correct. So we not only need a vaccine bank 
with at least 500 million doses of those 23 strains, we also 
need a diagnostic laboratory network that has got surge 
capacity to be able to diagnose not only infected animals but 
we have to be able to diagnose that animals are not infected 
and are safe to move to slaughter or to move to other 
facilities. We need to have foreign animal disease 
diagnosticians on the ground and trained to be able to diagnose 
those animals. We have a--we'd love to have a pen-side test but 
the consequences of having a wrong diagnosis on a potential 
economic devastation if we say this animal's infected with foot 
and mouth disease and it's not would be devastating. So having 
a 100 percent accurate test on a pen-side test is very 
difficult. So we need--in addition to that as a preliminary 
screen, we need our diagnostic labs to be able to communicate 
with our state veterinarians not only in their state but also 
the states surrounding them where animals may move. We need to 
have seamless information that state veterinarians can look at 
from the farm through the diagnostic lab into the federal 
system of data collection so that they can make decisions on if 
an animal's safe to move, if a quarantine zone needs to be 
connected.
    Our system of data collection and transfer from private 
farms, diagnostic labs, state veterinarians, and federal 
veterinarians is broken. The National Pork Board is investing 
almost $1 million with the DHS Center in Texas A&M to try to 
help put together systems to visualize data that will help us 
out in an outbreak. That's privately funded. We also need 
public funding to fix those data systems.
    Mr. Lucas. Tolerate me for just a moment, Mr. Chairman, 
because agriculture, we produce almost everything everywhere in 
the country in some quantity. We're not just talking about one 
central vaccine stockpile. This has to be regionally placed for 
whatever particular disease we're trying to protect ourselves 
from to be available instantaneously, and I assume my other 
friends over here would note that viruses change subtly, 
constantly in the wild so the stockpile has to be adjusted to 
reflect what's virulent and available out there. It's not a 
sexy topic, Mr. Chairman, but it would be of critical nature. 
Would my friends on the panel agree briefly? I guess they all 
agree.
    Dr. Wagstrom. We all agree. One thought just to put it in 
perspective, there are a million pigs a day that are on wheels 
moving in a truck somewhere across this country, about half a 
million cattle on wheels every day. So we don't have the 
likelihood of having a small outbreak on one farm in a remote 
area of the country. It's going to be a nationwide outbreak.
    Mr. Lucas. I appreciate your indulgence, Mr. Chairman.
    Mr. Marshall. Let the record show that Mr. Lucas and the 
Chairman of this Committee hearing thinks that biochemistry is 
sexy, so I'm all in.
    Okay. Next we recognize Ms. Bonamici for questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to our panel. The district I represent out in the great 
State of Oregon has quite a bit of agriculture, mostly 
specialty crops, and this hearing is about the importance of 
agricultural research. Sometimes we have to take a step up and 
talk about the importance of agriculture. I think a lot of 
people in this country are still very detached from the source 
of their food. I think efforts like Farm to Table help with 
that so that people in urban areas understand that farms are 
important and agriculture is important for their food.
    I wanted to ask you, recent articles have discussed an 
alarming decline in insect populations and also pollinators. 
This obviously affects agriculture. Are any of you looking at 
this, and if so, what are you finding? Dr. Moose, it looks like 
you want to say something.
    Dr. Moose. My experience with pollinators is, growing up on 
the farm, we had bees. We raised bees. We raised honey. So I 
know about the issue that you speak. It's one where science has 
yet to quite figure out exactly what the cause of the decline 
is. There are a number of possibilities, and it's probably a 
combination of factors. That said, in the last few years 
there's been a rebound, if you will, and we also don't 
understand how that has happened either other than I think as 
spoke to earlier about the cows and pigs on wheels, bees are on 
wheels as well, and some of that practice may have contributed 
to the colony collapse, et cetera, again, not definitive but 
there have been changes in that to some extent because of the 
concerns around that, and maybe it's just correlation but the 
fact that there's been a reduction in the movement and then 
less of an issue with the pollinators may be connected.
    Ms. Bonamici. Thank you. Climate change affects food 
security. How does that shape your research agenda? How are you 
looking at with increasing temperatures, increase in severity 
of weather events? Dr. Moose again?
    Dr. Moose. Yeah. So clearly if you're a farmer, you're 
paying attention to climate both daily and seasonally, and so I 
think where the opportunity lies is that with the new 
technologies--it was mentioned earlier about NASA and their 
satellites. That technology and others like it that weren't 
even from agriculture necessarily have a big impact on our 
ability to monitor at a level unprecedented previously where 
all farms can become a research entity, if you wish. And so 
being able to track the variation in climate, to track to 
performance and the productivity in farms including the 
different systems--we have very different kinds of production 
systems and sometimes you will hear this system is better than 
that system. We had a question about perennial and annual.
    Ms. Bonamici. Right, right.
    Dr. Moose. The ability to monitor those allows us to 
actually gather data to really say here are the benefits to 
that system both economically in the short term, 
environmentally in the long term, and this is an area--it's 
only starting to begin now but there's a tremendous opportunity 
with our, we'll call it the Big Data revolution that every 
combine is instrumented with a GPS and is tracking, and many 
others of this area.
    I know in our own department we've recently hired a faculty 
member specifically to look into this question because we want 
to make sure again connecting farmers to the science to society 
that everyone who would be a partner in this is a partner.
    Ms. Bonamici. Terrific. And I wanted to also talk a little 
bit about the workforce issue. I serve on the Education and 
Workforce Committee, and out in my state we have Oregon State 
University, our land grant university, which has extension 
services in every one of our 36 counties. They run a great 4H 
youth development program. Of course, we have our Future 
Farmers of America program. But I know, again, staying with Dr. 
Moose for now, you talked about you and your wife growing up on 
your family farms. How do we encourage the next generation to 
go into agriculture, even if they don't have that family 
history that you have? And I'll ask you quickly but then I'll 
ask the other panelists as well. How do we make sure we have a 
workforce to address these issues?
    Dr. Moose. Yeah, so I can speak to that. In the University 
of Illinois, most of our students come from Chicagoland so we 
really do have this urban population, and I guess the way to 
convince them is that this type of research is exciting, and 
this is what I try to do on a daily basis, but I think when you 
see the advances in science, you know, a lot of students might 
think, you know, the doctor or the medicine is where the action 
is. When I was, you know, younger, certainly that was the case. 
I think that agriculture research, it has that connection that 
it could be the next big thing, and that is the kind of message 
that we try to convey to students.
    Ms. Bonamici. I appreciate that. We will certainly need 
that workforce. Thank you.
    My time is expired. I yield back. Thank you, Mr. Chairman.
    Mr. Marshall. I now recognize myself for questions as well.
    I'd like to, without objection, submit the Blue Ribbon 
Study Panel for the record, which several of our witnesses have 
referenced, and salute Senator Tom Daschle and his great work 
on this project as well. It's been a joy to get to work with 
him.
    [The information appears in Appendix II]
    Mr. Marshall. I'll start with my first question with Mr. 
Higgs. You discussed in the process of the Biosecurity Research 
Institute where you work has taken to ensure a smooth 
transition for NBAF. As you know, NBAF has the full support of 
the surrounding community as well as the support of Kansas 
State President General Richard Meyers, who's the former 
Chairman of the Joint Chiefs of Staff. He brings a very unique 
perspective to this and the value of NBAF when it comes to 
national security. Can you discuss how quickly, specifically, 
how quickly can NBAF start their critical research once it 
becomes operational?
    Dr. Higgs. Thank you, Congressman, for that question. So 
NBAF will become operational, fully operational, probably in 
2022, 2023, and it will become operational with dependency on 
an appropriate workforce. It will take approximately 350 or 400 
people to work at NBAF, and part of our mission at Kansas State 
is to help develop that workforce. We're in constant 
conversation with Homeland Security, with the U.S. Department 
of Agriculture and so forth. We have to align the training with 
the needs of NBAF towards 2023. Obviously there will be 
sequential employment of people at that facility, but it can't 
become fully operational until it has all of the staff 
necessary. Both DHS and USDA are already in those conversations 
and thinking ahead, but we obviously need a solid plan to know 
what type of people we need and when, in order to enable that.
    Mr. Marshall. Okay. I'll go to Dr. Gerstein next. The Blue 
Ribbon Panel report mentioned several strategies to ensure NBAF 
is fully utilized including the private-public relationships. 
Earlier this year DHS proposed the closure of the National 
Biodefense Analysis and Countermeasures Center located at Fort 
Detrick in Maryland and still remains underutilized despite 
being brought online seven years ago. How can we ensure NBAF's 
space and capabilities are fully utilized to their fullest 
extent?
    Dr. Gerstein. Well, thanks for that question. Let me start 
at the beginning and say I think it's critically important that 
we not only fund the development of these facilities but we 
think about the long-term viability. In the case of NBACC, I 
think we're losing a critical capability for bioforensics and 
for threat awareness that could put our country at risk.
    Now, turning specifically to NBAF, I like the idea of 
developing a strategy, that is, a public-private partnership, 
and I would just compliment Kansas for the tremendous support 
that they had given when I was in the Department. Just 
recognize that they had put forward approximately 25 percent of 
the cost to put that facility in--you know, to build it. And so 
I think that's really a tremendous commitment but we have to 
continue that commitment into the lifecycle, and we have to 
ensure that, you know, we bring along industry, the 
biopharmaceutical industry as well, the pork producers and the 
livestock, cattlemen's associations. These are all very 
important that they are part of working together to develop 
solutions for this industry.
    Mr. Marshall. Dr. Gerstein, are you familiar with the 
Fusion Center as well? Are you allowed to talk about how 
integral that can be with this process as well? It's quite an 
amazing facility. I got to visit recently.
    Dr. Gerstein. Well, yeah, absolutely. Look, any time that 
you bring information and you fuse different capabilities, you 
bring different stakeholders to the table is extraordinarily 
important, and in this particular area, the $1 trillion, over 
five percent of the U.S. economy, when we can bring that kind 
of throw weight into the dialog, it's going to be beneficial.
    Mr. Marshall. I'll finish up with Dr. Higgs. The BRI 
research also encompasses plant diseases with a focus on 
diseases like the fungus wheat blast. Wheat accounts for 20 
percent of all calories consumed globally, making ag research a 
matter of food security. What kind of impact would wheat blast 
have on our ability to produce and export wheat, and what does 
BRI and Kansas State do to combat this deadly plant disease and 
others? And again, so proud of the Wheat Institute is doing 
there as well.
    Dr. Higgs. Well, to answer the question briefly, it would 
devastate our wheat production. This is a pathogen from South 
America that can cause 100 percent crop losses. We've been 
conducting research in the BRI since 2009 to study wheat blast 
and look at wheat varieties that are resistant to that. We've 
done research for the Australian government, for example, who 
won't allow that pathogen in the country. We've now seen wheat 
blast for the first time get into, Bangladesh and, India, and 
it is devastating their crops. So that research is critical and 
run by colleagues in the College of Agriculture.
    Mr. Marshall. Okay. Thank you, everyone, for answering my 
questions.
    I'll now recognize Mr. LaHood for questions.
    Mr. LaHood. Well, thank you, Mr. Chairman, and thank you 
for having this important hearing today on agriculture 
research, and I want to thank the witnesses for being here 
today and for your valuable testimony.
    The district that I represent in central and west central 
Illinois has two distinctions related to agriculture. First, 
it's the eighth largest in the country in terms of corn and 
soybean production, and also our district produces 96 percent 
of the pumpkins produced in the entire world in our district, 
and we're awful proud of both those. I like to tell people 
we've got some of the most fertile farmland in the entire world 
in central and west central Illinois. People are also surprised 
to learn that in the State of Illinois, the number one industry 
is agriculture. It's not any industry in Chicago or other 
places, it's agriculture, and we're awful proud of that in 
Illinois.
    In my time in office, I've put together an Ag Advisory 
Committee that I meet with on a quarterly basis, and we talk 
about issues related to agriculture, and I'm amazed at the 
technology and the modernization of agriculture in all 
different sectors, whether it's drought-resistant seeds or 
nutrients that are put on our farm fields or the technology 
that goes into our tractors and equipment. It continues to 
amaze me what goes on sometimes in a quiet way in agriculture, 
and obviously all of that work and the research that has been 
done has resulted in yields that continue to get stronger and 
stronger. Now, we've got to do some work on prices, but 
obviously the work that's gone on has helped with our yields 
and really bountiful harvests that we've had.
    Before my questions, I want to highlight a unique 
agriculture research facility located in Peoria, Illinois, that 
I represent, and that's the National Center for Agriculture 
Utilization Research in Peoria, also known as the Peoria Ag 
Lab. The Ag Lab is run as part of the Agriculture Research 
Service (ARS), which has been a vital agency within the 
Department of Agriculture. For over a half-century, this agency 
has done work to improve the lives of countless Americans and 
includes research on corn, wheat and soybeans as well as the 
distinction of developing the mass production of penicillin in 
the 1940s by Nobel Prize-winning scientists at the Peoria Ag 
Lab. Currently, the Peoria Ag Lab is designated to lead 
technology transfer for the USDA and focuses on bioenergy, 
renewable resources, and research for safe and healthy foods. 
To list all the examples of the impactful research done at the 
Ag Lab would take more than my allotted time but I would like 
to talk about a few and highlight the valuable research that 
goes on there.
    First, ARS scientists in Peoria developed the first 
American Petroleum Institute-certified bio-based motor oil from 
a seed crop, providing for growth in the agriculture and 
manufacturing sectors of the economy. Second, toxins produced 
by fungi during grain production and storage cause billions of 
dollars in annual losses to the U.S. economy and have had 
significantly negative impact on farmers and rural communities. 
The toxin detection technologies developed by ARS in Peoria 
were transferred to the private sector via licensing agreements 
to more than 30 companies and their widespread use has helped 
to ensure the safety of the food supply and help to promote job 
growth in the biotechnology area. Third, new biodegradable 
products that are nontoxic and inexpensive to produce have been 
prepared from renewable materials using a process that can 
easily be scaled by small or large businesses in any location. 
These products developed by ARS in Peoria can be used to 
control a wide variety of pests and pathogens, and combined 
with their low production cost will make this discovery a 
valuable new tool to help farmers and improve yield and promote 
economic development.
    Building off that discussion on agriculture research, Dr. 
Moose, I wanted to ask you, how can federal support of 
agriculture research, which our Peoria Ag Lab relies on federal 
research, ensure that America is prepared to lead in emerging 
science to continue to benefit our farmers and the U.S. 
economy?
    Dr. Moose. Yes. So the Peoria Lab's a great example of 
this--the research that goes on there, the technology transfer, 
the impact that it has on the farm or through society, and so I 
would say I guess more examples like that would be beneficial, 
and the mechanisms, there are a variety of ways to do it. The 
USDA ARS runs that facility. There are others like it that are 
partnerships with either university or industry groups.
    But I think another aspect that could be sort of going 
forward and enhancing this is just convening at the table, 
having a voice, an opportunity for industry, government and 
society or the end users, we'll call them, sitting down at the 
table, and those things happen just in our own--recently the 
people from the Peoria Lab are partners in our new Bioenergy 
Center that's actually a Department of Energy-funded project 
with the University of Illinois and partners all over the 
country, and so through that center, we will be having this 
conversation and specifically around renewable energy from 
biomass and renewable products, and so the group at Peoria Lab 
that are partners, they're a critical piece of that translation 
from--we have plants that are valuable on the farm, they have 
unique properties, how can they be processed and added value. 
And the Peoria Lab is well positioned for that because 
industry, it might be too risky for them to do that type of 
work right now, but if we can transition that into a less risky 
and commercially viable option, then that would--the benefits 
will come.
    Mr. LaHood. Thank you. I look forward to working with you, 
Dr. Moose.
    Mr. Marshall. I now recognize Mr. Hultgren for questions.
    Mr. Hultgren. Thank you, Chairman. Thank you so much for 
being here. This is a very important discussion and I want to 
just say thank you for your time and your expertise. Also, I 
have to recognize this is the second day in a row that we've 
had someone representing one of our great universities from 
Illinois, so I want to keep the streak going. I'm looking 
forward to tomorrow. I'm not sure who our witness will be then 
but we're so proud of University of Illinois and all of our 
great universities. So thank you.
    As my colleagues have said, agriculture is so important, 
and certainly in Illinois, agriculture drives exports. I had 
the great opportunity last year to be in Taiwan, meet with the 
president of Taiwan, and also foreign and agricultural 
ministers there just to discuss how important and mutual 
importance of agriculture exports and specifically from 
Illinois.
    I also serve as Co-Chairman of the Tom Lantos Human Rights 
Commission and see that agriculture and food security as an 
ever-present force that compounds and exacerbates the basic 
lack of legal and human rights in conflict regions around the 
world. So we have to continue to recognize what we can do to 
make sure that food is available to every single person.
    Dr. Moose, I wonder if I could address my first question to 
you. Can you talk a little bit about how federal support for 
agricultural research can encourage stronger connections 
between farmers, scientists and society, and how specifically 
Illinois is helping to build those connections?
    Dr. Moose. Yes. So as I alluded to in the testimony that I 
gave and then in my written testimony, I think the federal 
government has this role of bringing the community together, 
the community of scientists, the interaction with society, and 
then because agriculture is so important to many districts 
around the country, it is why it's a national issue. Every 
region of the country has their own climate, their own 
agricultural systems that operate there, yet we can learn from 
all of them. What a corn farmer does in Illinois he may learn 
from the farmer elsewhere in the country. So that's one.
    Also, it was alluded to earlier, building the pipeline 
where through education, you're not only educating the 
knowledge, there's the networking, the interaction of people 
that I know certainly in my career at North Carolina State, it 
was the early days of biotechnology research, and it was 
recognized a workforce needed to be developed, and North 
Carolina State was one of the first to do that, and now my 
peers that I went through that program with are leaders in the 
industry, they're leaders in government, they're leaders in 
academia. We need to have that next generation also. And I 
think the unique aspect of that program and others like we have 
at Illinois, for example, our Illinois Plant Reading Center, 
industry supports the graduate training. They don't expect a 
research outcome. All they expect is, maybe we'll have some 
good employees, you know, to hire down the road, and so I think 
that educational piece is really important, and it was integral 
to Lincoln's vision. He considered education foremost to drive 
the research.
    Mr. Hultgren. I agree. Let me open this up to everyone.
    Coming from Illinois, I see our National Laboratories as 
vital to our research ecosystem, building the large research 
facilities and unique one-off machines that no one institution 
or federal agency has the ability to manage, so again, these 
laboratories are so important to bring people together. The 
Advanced Photon Source at Argonne has nearly 2,000 users in the 
biological and life sciences. I toured Lawrence Berkeley this 
year and saw the great benefits of the Joint Genome Institute 
to multiple areas of research. Facilities like the Molecular 
Science Lab at PNNL also come to mind.
    Do you think that USDA is properly leveraging these 
facilities and other investments in our lab, and how can we 
better facilitate a more collaborative approach between 
different agencies so that we're doing the best science and not 
duplicating efforts and facilities? I'd open it up to anybody.
    Dr. Gerstein. Well, I wouldn't mind starting just to talk a 
little bit about Plum Island and the work that was done there. 
I was in charge of Plum Island. It was part of the Science and 
Technology Directorate when I was acting Under and then Deputy 
Under Secretary. So I worked with them very closely, and I 
always felt like Plum Island was really very much of a joint 
facility. I had Department of Homeland Security people and I 
had people from USDA, Department of Agriculture, and every time 
I'd go up there, I couldn't keep straight who was from which 
organization, and they were literally working on the bench side 
by side. One of the outputs of this collaboration was the first 
ever what we call a diva vaccine for foot and mouth disease, 
and so that's a great representation of where there is good 
collaboration. I felt the same with other agencies, for 
example, EPA and Department of Ag and Health and Human Services 
as well as Homeland Security. We all collaborated on difficult 
questions about how would one handle a foot and mouth disease 
event. For example, think about the large amount of just waste 
that would be generated if you had to depopulate a number of 
livestock across several different farms. You know, we were 
thinking about numbers in excess of 50,000 animals at a time 
that would--you know, you'd have to do something with all that 
waste. So, I mean, we worked very closely to try to 
collaborate, and there's a lot of--believe it or not, even on 
the depopulation question, there's a lot of research and 
development that goes into answering how clean is clean enough 
and how do you dispose of what could be very dangerous 
pathogenic material.
    Mr. Hultgren. Thank you. Five minutes, now six minutes, 
goes by way too fast. So we'll follow up because I think this 
is an important issue of again how we can be continuing to 
build collaboration. Thank you all.
    I yield back.
    Mr. Marshall. I do want to add my thanks to all the 
witnesses for coming today. It was an excellent education for 
me. Thanks for your testimony and the Members for their 
questions and participation.
    The record will remain open for two weeks for additional 
written comments and written questions from Members.
    This hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
